BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 unbound
copy and 40 bound copies of the foregoing Brief of
Project for Privacy & Surveillance Accountability and
Restore the Fourth, Inc. as Amici Curiae Supporting
Petitioner in 20-18, Arthur Gregory Lange v.
California, were sent via Next Day Service to the U.S.
Supreme Court, and Next Day e-mail service to the
following parties listed below, this 11th day of
December, 2020:
Brian Halligan Fletcher
Stanford Law School Supreme Court Clinic
559 Nathan Abbott Way
Stanford, CA 94305
(650) 724-3345
bfletcher@law.stanford.edu

Counsel for Petitioner
Samuel Thomas Harbourt
California Department of Justice
Office of the Solicitor General
455 Golden Gate Ave Suite 11000
San Francisco, CA 94102
(415) 510-3919
Samuel.Harbourt@doj.ca.gov

Counsel for Respondent

I

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

1

I

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Amanda Kelly Rice
Jones Day
150 W. Jefferson Ave., Suite 2100
Detroit, MI 48226
(313) 230-7926
arice@jonesday.com

Court-appointed Amicus Curiae
Gene C. Schaerr
Counsel of Record
Erik S. Jaffe
Hannah E. Tarbert
Joshua J. Prince
Schaerr I Jaffe LLP
1717 K Street, NW, Suite 900
Washington, DC 20006
(202) 787-1060
gschaerr@schaerr-jaffe.com
Mahesha P. Subbaraman
Subbaraman PLLC
222 S. 9th St., Ste. 1600
Minneapolis, MN 55402
(612) 315-9210
mps@subblaw.com

Counsel for Amicus Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on December 11, 2020.

Cvvchi

M~

EmilyM~s
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

~~ ti, d6c3o

duiv11- ~

Notary Public
[seal]

_;c1:.~N D GALLAGHER
Notary f-ublic, State of Ohio
My Commission Expires
February 14, 2023

